<html>
<title> - D.C. METRO: UPDATE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                           D.C. METRO: UPDATE

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    TRANSPORTATION AND PUBLIC ASSETS

                                AND THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 21, 2015

                               __________

                           Serial No. 114-49

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                                ____________
                                
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
97-425 PDF                    WASHNGTON : 2015                        
              
________________________________________________________________________________________              
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97f0e7f8d7f4e2e4e3fff2fbe7b9f4f8fab9">[email&#160;protected]</a>  
             
              
              
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK, MULVANEY, South Carolina       BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Massachusetts              BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
  James Robertson, Staff Director, Subcommittee on Transportation and 
                             Public Assets
    Jennifer Hemingway, Staff Director, Subcommittee on Government 
                               Operations
            Christopher D'Angelo, Professional Staff Member
                           Sarah Vance, Clerk
            Subcommittee on Transportation and Public Assets

                     JOHN L. MICA Florida, Chairman
MICHAEL R. TURNER, Ohio              TAMMY DUCKWORTH, Illinois, Ranking 
JOHN J. DUNCAN, JR. Tennessee            Member
JUSTIN AMASH, Michigan               BONNIE WATSON COLEMAN, New Jersey
THOMAS MASSIE, Kentucky              MARK DESAULNIER, California
GLENN GROTHMAN, Wisconsin, Vice      BRENDAN F. BOYLE, Pennsylvania
    Chair

                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 21, 2015....................................     1

                               WITNESSES

The Hon. T. Bella Dinh-Zarr, Vice Chairman, National 
  Transportation Safety Board
    Oral Statement...............................................     7
    Written Statement............................................     9
Mr. Jack Requa, Interim General Manager and Chief Executive 
  Officer, Washington Metropolitan Area Transit Authority
    Oral Statement...............................................     9
    Written Statement............................................    11
Mr. Dennis Anosike, Chief Financial Officer, Washington 
  Metropolitan Area Transit Authority
    Oral Statement...............................................    11
    Written Statement............................................    12
Ms. Helen Lew, Inspector General, Washington Metropolitan Area 
  Transit Authority
    Oral Statement...............................................    12
    Written Statement............................................    13

                                APPENDIX

Statement of Mr. Van Hollen......................................    30
Letter to Mr. Jack Requa, Interim General Manager, WMATA, from 
  David F. Snyder, Chairman, Northern Virginia Transportation 
  Commission.....................................................    31
NEPP Questions and Answers.......................................    35
Letter to Mr. David F. Snyder from Jack Requa....................    38
Letter to Chairman Chaffetz from Helen Lew, Inspector General, 
  WMATA..........................................................    41
Approval of Revisions to Board Procedures Regarding Committee 
  Chairs and Audit Report Review Acceptance......................    43

 
                           D.C. METRO: UPDATE

                              ----------                              


                         Tuesday, July 21, 2015

                  House of Representatives,
 Subcommittee on Transportation and Public Assets, 
         joint with the Subcommittee on Government 
                                        Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 5:05 p.m., in 
Room 2154, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the Subcommittee on Transportation and Public 
Assets] presiding.
    Present from the Subcommittee on Transportation and Public 
Assets: Representatives Mica, Grothman, Massie, Duckworth, 
Watson Coleman, and DeSaulnier.
    Present from the Subcommittee on Government Operations: 
Representatives Meadows, Massie, Buck, Carter, Connolly, 
Norton, Clay, and Plaskett.
    Mr. Mica. Good afternoon. I would like to welcome everyone 
to the Committee on Government Oversight and Reform and the 
Subcommittee on Transportation and Public Assets. Very pleased 
to have you with us today.
    And today we are focusing our subcommittee hearing on some 
of the operations of the D.C. Metro, also known as WMATA. We 
have a joint subcommittee hearing, and I am pleased to help 
chair this subcommittee hearing. And we have our ranking member 
on her way.
    And the order of business is we will hear, first, opening 
statements, and we will go from side to side.
    Without objection, the chair is authorized to declare a 
recess at any time during the hearing. But we do have votes at 
6:30, so we will try to proceed, make this hearing as succinct 
and direct as possible.
    But, again, welcome, everyone.
    So, with that--welcome, again, Ranking Member. And we will 
get started this afternoon. I want to first open with my 
opening statement. Then we will turn to the others, and then we 
will go to our witnesses.
    So, earlier this year, our committee held a hearing on the 
L'Enfant Plaza smoke incident that ended, unfortunately and 
most tragically, with the death of a passenger and more than 80 
others injured.
    Alarmingly, just last week, Secretary of Transportation 
Anthony Foxx held an urgent meeting with the region's top 
elected officials to discuss urgent safety issues that deal 
with our rail line. Secretary Foxx had said, in calling the 
meeting, ``Put simply, WMATA has not provided the level of 
safety that its riders and employees need and deserve.'' That 
is not what I said; that is what he said.
    So we meet here today not only to receive an update on the 
NTSB investigation into the incident but also to review what 
Metro has done to address some of the safety concerns raised by 
numerous Federal transportation agencies and some of the other 
pending issues that we have also been made aware of.
    Since our February meeting, the NTSB has held a series of 
investigative hearings on issues surrounding the L'Enfant Plaza 
incident, including the state of Metro's infrastructure, 
emergency response efforts, and its organizational structure.
    Although the NTSB has yet to determine the exact cause of 
the January incident, it has revealed that some electrical 
connections associated with the power supply to the third rail 
were improperly constructed and installed without what they 
call sealing sleeves. In fact, I think some of us who went down 
there got to actually see the power connecters and where they 
had arced. And my guess, having been in some of the development 
business, is that water had seeped in, and the system had 
shorted out. We will hear from the experts in just a little bit 
on that matter.
    The NTSB told the committee staff that there were, in fact, 
thousands of these connections along the Metro system that, in 
fact, lack proper sealing sleeves. That raises many questions 
about the safety of the system even as we are here meeting this 
afternoon. And that situation, as far as safety, is totally 
unacceptable.
    Today's hearing will also allow the committee to examine 
some other financial and organizational challenges that are 
facing Metro.
    The Federal Transit Administration recently initiated and 
completed its first safety audit of the Metro system, which was 
done under the MAP-21 legislation. This safety audit identified 
organizational deficiencies and operational concerns that 
significantly limit Metro's ability to recognize and resolve 
safety issues. We will also hear about that.
    The FTA audit also found that Metro's financial problems 
are even more alarming than some of us had expected. We will 
hear about that, too, today. FTA's financial audit identified 
serious ``material weaknesses''--that term, ``material 
weaknesses,'' is in quotes--and also ``significant 
deficiencies''--that is also in quotes, not my term--in its 
financial management system.
    Following this audit, FTA has tightened WMATA's access to 
grant funds. And, unfortunately, we are going to hear about 
some misuse, abuse, and improper procedures dealing with grants 
and Federal funds.
    Metro also administers five pension funds and has over a 
billion dollars in unfunded pension liability.
    In addition to this extreme financial condition, the 
committee also has concerns that Metro's inspector general 
lacks the proper--and should be complete independence. Metro's 
IG reports directly to the Board; however, the IG lacks the 
authority to audit or investigate the Board. This is in 
contrast with Federal IGs, who have that authority. And I heard 
one anecdotal report that the Board took down, actually, a 
report that was somewhat critical and that should have been 
made public. So we will look at the relationship between the 
Board and the IG.
    We also hope to get an update on Metro's communications and 
interoperability issues. These problems contributed to the 
uncoordinated response at the L'Enfant Plaza. They still exist, 
and this is unacceptable, given the time we have had from that 
incident and the nearly 14 years since the terrorist attack on 
September 11, the various funds and timeframes that have been 
given to WMATA to make certain that our first responders and 
communications system do have interoperability and can keep us 
safe. Right now, the system, I would say, is unsafe for both 
passengers and employees, and proper action to correct that has 
not been taken.
    One of the things that concerns me, too, is I sent to WMATA 
a letter--it wasn't just me; it was other Members of Congress--
to the interim general manager. And we will ask about this. We 
had some specific concerns that we outlined, asking for 
specific responses to actions, and we still haven't gotten a 
response.
    I got a response that they would be responding. In fact, 
they were going to meet with our folks, it says in their 
response to me, to give us the proper responses we asked for. 
``WMATA and wireless representatives are scheduled to meet 
again the week of July 13.'' That did not occur, that I know 
of, and we were supposed to get an update for our staffs on 
progress at that time, and we did not. So I am very concerned, 
again, about some of the things that have been promised and not 
delivered.
    The D.C. Metro is one of the most important transit systems 
in the country. It not only serves millions of Federal 
employees and other daily commuters, but it also helps our 
constituents move throughout the capital when they come to 
visit--center of business and commerce, diplomacy. So many 
people use the system. And, again, we have many concerns, 
unanswered questions.
    I do hope that today's hearing will help us answer 
questions that I have raised and that millions of their riders 
deserve answers to, and the taxpayers also, and, of course, 
most important, find out the status of the safety of the 
system.
    So, with those comments, let me yield to our ranking 
member, Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Chairman Mica, Chairman Meadows, and Ranking Member 
Connolly, thank you for holding this evening's joint hearing to 
examine WMATA's efforts to implement key safety recommendations 
developed in the aftermath of the January 12, 2015, incident 
that injured more than 80 passengers and, worse of all, led to 
the tragic death of Ms. Carol Glover.
    Metro, as we all know, operates one of the Nation's most 
important transit systems. It is vital that we act decisively 
to restore confidence in Metro, which connects our Nation's 
capital and serves millions of tourists hailing from all 50 
States and across the globe in addition to tens of thousands of 
career civil servants. As Ranking Member Connolly noted at the 
February hearing, when Metro doesn't function, the Federal 
Government has to shut down. It is that vital.
    I also hope this committee's focus will extend beyond 
WMATA, as the challenges associated with the January 12 
incident carry important safety lessons that expend far beyond 
the national capital region. For example, in my home State of 
Illinois, we are quite proud of the Chicago Transit Authority, 
which operates the second-largest public transportation system 
in the United States and boasts an average daily ridership of 
1.7 million riders. Yet, just like WMATA, CTA faces the 
daunting task of maintaining efficient operations on a massive, 
aging system, all without sacrificing passenger safety and 
convenience.
    As ranking member of the Transportation and Public Assets 
Subcommittee, I am particularly interested in examining the 
effectiveness of the Federal Transit Administration's efforts 
to improve mass transit safety.
    It remains unclear why FTA did not effectively implement 
the now-prophetic 2007 NTSB recommendations that explicitly 
directed the FTA to inform all rail transit agencies about the 
circumstances of the July 11, 2000, incident in Chicago and 
urge them to examine and improve, as necessary, their ability 
to communicate with passengers and perform emergency 
evacuations from their tunnel systems, including the ability to 
identify the exact locations of a train, locate a specific call 
box, and to remove smoke from their tunnel systems. Remember, 
this happened 6 years prior to 2012.
    The FTA had more than 7 years to ensure that all rail 
transit agencies were not only informed of the 2006 Chicago 
electrical arcing incident but, more importantly, took action 
to examine and improve their ability to communicate with 
passengers, locate stopped trains, and use ventilation systems 
to remove smoke from tunnels during arcing incidents.
    The January 12 accident is a wake-up call to America's 
entire rail transit system that ignoring the NTSB 
recommendations can have deadly consequences for our 
constituents. We cannot--we must not--allow this to happen 
again.
    I look forward to examining with NTSB Vice Chairman Dinh-
Zarr what specific policy and oversight action Congress can 
take to ensure that Federal entities, such as the FTA, fully 
accept and effectively implement NTSB's safety recommendations.
    While it is not possible to completely eliminate risk from 
a transit system that is full of unforeseen and uncontrollable 
factors, Congress can ensure rail systems across the country 
will learn from past mistakes in other parts of the Nation.
    With that, I yield back. Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentlelady.
    And we will recognize the chairman of the Subcommittee on 
Government Operations for his opening statement.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank each of you for being back with us.
    As you know, in mid-February, we had a joint subcommittee 
hearing to discuss the safety of the Washington Metropolitan 
Area Transit Authority, better known as WMATA to most folks. As 
we look at this, one of the things that we hope to hear today 
are the improvements--where we have come from that particular 
time to where we are today; what is some of the progress that 
we can celebrate; what are some of the impediments that perhaps 
we can help alleviate so that the second-busiest rail system in 
the country can enjoy not only safe but reliable travel.
    Over the last 6 months, I think the Metro has had more than 
79 delays that have lasted 30 minutes or longer. This is more 
than they had over the same period for the last 2 years. So 
when you have that, it doesn't sound like we are making 
progress.
    And from Metro riders all over Capitol Hill, we get to hear 
about it. In fact, someone in my own office told me about the 
experience of being stuck on the Metro for over 3 hours with 
smoke filling. It sounded like we were having this same kind of 
incident all over again, except this time it didn't relate in a 
death. But I don't know that we have learned a whole lot from 
where we have been, and I don't know how we can make it that 
much more of a priority.
    So my encouragement to each of you is, as a board, we need 
to make sure that we get a general manager. To have 10 months 
go by without a general manager to operate this system is 
really inexcusable and certainly doesn't suggest that it is a 
priority.
    With that being said, it is also puzzling to me how, with 
FTA coming in and finding lack of controls, financial issues, I 
guess is the best way to put it, how we could have an 
unqualified audit year after year and then all of a sudden have 
this pop up.
    So I look forward, Ms. Lew, to hearing from you on why this 
continues to persist. How can we help?
    Mr. Chairman, I know we are sensitive on time, so I would 
ask that my full written record be submitted to the record.
    Mr. Mica. Without objection.
    Mr. Mica. And we will leave the record open for a period of 
10 days--without objection, so ordered--for additional 
statements and submissions.
    Mr. Meadows. And I yield back.
    Mr. Mica. Now to the ranking member of the Government 
Operations Subcommittee, my old buddy.
    Miss you, Mr. Connolly, but I have Ms. Duckworth, who is--
--
    Mr. Connolly. She is a lot better looking.
    Mr. Mica. Yeah, she is; there is no question about that.
    The gentleman from Virginia is recognized.
    Mr. Connolly. I thank you, Mr. Chairman. And I thank the 
ranking member, Ms. Duckworth. And I thank my friend Mr. 
Meadows, the chairman of Government Ops.
    And welcome to the panel.
    First of all, let me ask unanimous consent that the full 
statement of our colleague Chris Van Hollen, who represents 
part of the national capital region and, obviously, represents 
a large chunk of Metro, be entered into the record.
    Mr. Mica. Without objection, so ordered.
    Mr. Connolly. I thank the chair.
    I also will enter into the record my full statement, and, 
in the interest of time, I will try to be very succinct.
    I, as a longtime supporter, promoter of Metro, somebody who 
served on a local body here that paid the bills, somebody who 
staunchly supported creating a blue ribbon commission to have a 
dedicated source of revenue, somebody who appointed Fairfax 
County's representatives to the Metro Board, somebody who has 
fought any encroachment on our ability to have a viable, 
vibrant, up-and-running, functioning Metro, I think we have 
arrived to the point where there are now three crises that have 
to be managed and can't be ignored.
    There is a crisis in management leadership. All four 
reports coming out or in progress underscore that. You can't 
have temporary leadership forever. You can't have public 
bickering about one or the other in major attributes we expect 
to be combined in a leader. It can't be just a choice of, well, 
we want a fiscal manager who is a turnaround agent and 
apparently not somebody necessarily well-versed in operations, 
when we have all of the problems we have that clearly fall on 
the operations side. We need both. We need to be able to walk 
and chew gum at the same time, and we need leadership that can 
do the same.
    We have a crisis, second crisis, frankly, in commuter and 
stakeholder confidence. After the drip, drip, drip of the last 
number of years, I think the commuting public has real 
questions about what is going on at Metro and not only how it 
is managed but, frankly, whether the people who serve Metro, in 
all capacities, have the competence to do so.
    We had a tragic incident the other day of violence. I am 
old enough to remember our boasting about the fact we hadn't 
had a single crime in our Metro system. Now we have a murder on 
a car in front of the public. How in the world could that 
happen on a well-run Metro system in the Nation's capital?
    To say nothing of the arcing incidents and the earlier 
incident Ms. Duckworth made reference to a number of years ago. 
I think we have real work to do to restore public and commuter 
confidence and stakeholder confidence up here and in the 
compact members.
    And, finally, there is a crisis in safety. Is this a safe 
system? How in the world could some things be overlooked? Is it 
just a culture of a reaction so when something happens we 
respond to it, as opposed to a proactive culture that is 
integrated with safety concerns in everything we do and say; 
every time we have a meeting, that is on the agenda, implicitly 
and explicitly? If not, why not?
    This is the Nation's capital. We serve the Federal 
Government. We serve the population of the region. We serve 12 
million annual visitors who come here every year. What is it we 
think our responsibility is to that commuting public? How could 
we allow safety to deteriorate the way it seems to have 
deteriorated?
    And I speak not as a critic of Metro but as an advocate for 
it. I want more resources, not fewer resources. Because I 
happen to believe, warts and all, Metro is one of the most 
significant regional agreements we have ever had. And it has 
some real limitations, not its own fault, but that which is 
within our control we need to account for ourselves.
    So I am looking forward to this hearing, Mr. Chairman, and 
I come at it with a sense of real disappointment in events of 
the last few years and especially the last year. And I hope we 
can have some answers here today.
    Thank you.
    Mr. Mica. Well, thank you.
    And while we normally limit the opening statements and we 
are pressed for time, I do think it is appropriate, with your 
indulgence, ranking members, that we allow Ms. Norton, if she 
wanted, to make a statement at this time.
    Ms. Norton. Very brief. And in light of members' times, I 
would appreciate your going to questions.
    Mr. Mica. Okay. Well, thank you. Again, the District is 
such a principal in this, and we will allow plenty of time for 
questions.
    Now let's recognize our panel of witnesses. I am pleased to 
welcome the Honorable Bella Dinh-Zarr, Vice Chairman of the 
National Transportation Safety Board; Mr. Jack Requa, and he is 
the interim general manager and chief executive officer of 
Washington Metropolitan Area Transit Authority; Mr. Dennis 
Anosike, and he is the chief financial officer of the 
Washington Metropolitan Area Transit Authority; and, also, Ms. 
Helen Lew, inspector general of the Washington Metropolitan 
Transit Authority.
    Welcome.
    This is an investigations and oversight panel of Congress, 
and our committee and subcommittee swear in all of our 
witnesses. So, if you would stand, please, and be sworn.
    Raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give before this joint subcommittee hearing of 
Congress is the whole truth and nothing but the truth?
    Let the record reflect the witnesses answered in the 
affirmative.
    We do try to limit you to 5 minutes. If you have a lengthy 
submission, we will make it part of the record, or data that 
you would like included in the record.
    So, with that, let me first recognize the Honorable Bella 
Dinh-Zarr. And she is vice chairman of the NTSB.
    Welcome, and you are recognized.

                       WITNESS STATEMENTS

            STATEMENT OF THE HON. T. BELLA DINH-ZARR

    Ms. Dinh-Zarr. Thank you, Mr. Chairman.
    Good afternoon, Chairman Mica, Chairman Meadows, Ranking 
Member Duckworth, Ranking Member Connolly, and members of the 
subcommittees. Thank you for inviting me to testify today on 
behalf of the NTSB.
    As you are all aware, the NTSB is conducting an 
investigation of the January 12 electrical arcing and smoke 
accident near WMATA's L'Enfant Plaza station. Before I begin, I 
would like to offer on behalf of the entire NTSB our deepest 
condolences to the victims of this tragic accident and to their 
families.
    Since the subcommittee's last hearing on WMATA, at which 
NTSB also testified, we've learned that some electrical 
connections associated with the power supply to the third rail 
were improperly constructed and installed without sealing 
sleeves, which can allow moisture and contaminants to come into 
contact with high-voltage conductors. We identified this 
problem when we examined the electrical components from a smoke 
event that occurred in the tunnel near the Courthouse station 
on February 11.
    We issued a recommendation to WMATA to promptly develop and 
implement a program to ensure that all power cable connector 
assemblies are constructed and installed in accordance with the 
engineering design specifications, which includes installation 
of these sealing sleeves.
    It's important to note that we have yet to determine 
whether this deficiency was a cause or contributed to the 
January 12 accident, but this lack of sealing sleeves can 
increase the risk of electrical arcing.
    This is NTSB's fourth recommendation to WMATA as a result 
of the accident. The three urgent recommendations we issued to 
WMATA in February concern ventilation, and details can be found 
in my written testimony.
    As part of our investigation, as the chairman indicated, we 
held a 2-day public hearing to examine four issue areas, 
including the state of WMATA's infrastructure, emergency 
response efforts, WMATA's organizational culture, and the FTA 
and Tri-State Oversight Committee's efforts to address public 
transportation safety.
    Witnesses from various parties provided insight on what 
happened, and relevant organizations, including the FRA, 
Montgomery County Fire and Rescue, Metro-North Railroad, and 
the U.K. Office of Rail Regulation, gave their outside 
perspective on the larger questions raised by the accident.
    During the hearing, we focused on communication from the 
frontline employees to the top-level executives and across the 
different departments within WMATA. Interviews with the WMATA 
employees who were involved in the accident, taken together, 
demonstrated a lack of communication across the organizational 
units. We also heard testimony about communication challenges 
between local emergency responders and WMATA. Witnesses 
acknowledged that WMATA still has ongoing challenges in 
improving its safety culture.
    The hearing also focused on the role of the Tri-State 
Oversight Committee, commonly called the TOC, and its ability 
to oversee WMATA's operations. We learned that the FTA does not 
have regulatory programs providing boots-on-the-ground 
inspectors to assure compliance. Also, we heard that the TOC 
has extremely limited resources and authority to oversee 
WMATA's daily operations as well as long-term improvement 
plans.
    The L'Enfant Plaza accident highlights the NTSB's 
longstanding concerns regarding the safety of both the WMATA 
system and mass transit safety systems nationwide. Millions of 
people take mass transit every day. I am one of them. I care 
about the safety of public transportation as an NTSB board 
member and as a public health scientist but also because I 
depend on Metro every day to get around our Nation's capital.
    The advantages of efficient mass transit can't be 
overstated, but mass transit also must be safe. This is why it 
is so important for WMATA and other mass transit agencies to 
identify, to prioritize, and to mitigate the safety risks that 
threaten their operations and, therefore, threaten the safety 
of the American public.
    Our investigation is ongoing. We're analyzing information 
from our investigative hearing and the extensive factual 
materials that we've developed in the last 7 months. We 
anticipate that our investigation will be completed next year, 
and we'll certainly keep you informed as it moves forward.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [Prepared statement of Ms. Dinh-Zarr follows:]
    For complete submitted testimony, please see the following 
website: https//oversight.house.gov/hearing/d-c-metro-update/
    Mr. Mica. Thank you. And we will get to questions when we 
have heard from all of our panelists.
    Now let's hear from the chief executive officer of 
Washington Metropolitan Area Transit Authority, Mr. Jack Requa.

                    STATEMENT OF JACK REQUA

    Mr. Requa. Thank you.
    Chairman Mica, Chairman Meadows, Ranking Member Duckworth, 
Ranking Member Connolly, Congresswoman Norton, members of the 
subcommittee, thank you for the opportunity to testify today. 
My name is Jack Requa, and I am the interim general manager and 
chief executive officer of the Washington Metropolitan Area 
Transit Authority, known as Metro.
    My testimony will focus on several topics, including safety 
actions that Metro has taken immediately after to address both 
the January 12 incident and the recently concluded safety 
management inspection by the Federal Transit Administration, 
and also the Board search for a permanent general manager and 
chief executive officer.
    Regarding safety progress, last month the National 
Transportation Safety Board held its hearing on the January 12 
incident near L'Enfant Plaza station. For the family of Ms. 
Glover and all of us at Metro, reliving the events of that day 
was difficult. However, the process is important to fully 
understand what happened in order to prevent it from happening 
again.
    But I want to assure you that we are not waiting for the 
NTSB's final report to work on making the system safer. Work is 
already underway on 14 early actions to improve safety, 
emergency response, and the system's state of good repair. 
These actions were identified as part of Metro's own 
collaborative review with the NTSB, and it's important to note 
that these are not formal recommendations from the NTSB.
    Additionally, we have embraced and already have taken steps 
to address the four recommendations issued by the NTSB since 
January 12. We have completed inspection of all of our vent 
shaft fans in the Metro rail system, and we have already 
started work to address the most recent NTSB recommendations 
dealing with the power cable assemblies. I believe that the 
addition of the installation of the sealing sleeves on the 
power cable junction points is an important safety initiative 
and improvement to our construction methodology.
    I want to assure you that we will take whatever actions are 
needed to comply with any further recommendations of the NTSB 
when the final investigative report is released next year.
    Additionally, we have responded early to the Federal 
Transit Administration's 30-day deadline of its safety 
management inspection. To summarize, the FTA identified 44 
findings for Metro rail and 10 for Metrobus, with a total of 91 
recommended corrective actions. The FTA's findings mirror 
Metro's own inventory of concerns and provide important 
recommendations for improving Metro rail and bus safety, many 
of which were already underway prior to the SMI.
    While we recognize that we have much work ahead of us, it 
was reassuring that the FTA acknowledged numerous safety 
improvements completed by Metro over the last several years, 
which include initiating a first-of-its-kind, scientifically 
based fatigue management program for transit employees; 
establishing an enhanced roadway worker protection program; 
developing and carrying out a multiyear capital investment 
program to improve safety and reliability of equipment, 
infrastructure, and facilities; completing work to close out 
past NTSB safety recommendations; and developing an industry-
leading program for confidential close-call reporting. The 
report also recognizes clear and substantial progress since 
2009 and that the system is safe.
    Addressing the issues identified in the FTA's safety 
management inspection is a top priority of Metro. As I 
mentioned, we've provided the FTA with our initial response on 
July 13. The next step is that we will meet with the FTA to 
review our initial comments, which will be followed by 
submission of a detailed plan to identify funding requirements 
within 90 days, in full compliance with the FTA.
    We are transparent in our tracking and reporting of these 
corrective actions, with monthly reports made to the Board of 
Directors at public meetings. Mr. Anosike will provide 
information on the progress we have made, addressing the FTA 
financial management oversight audit. We have publicly reported 
on a monthly basis of our actions following FTA's financial 
management oversight report.
    First, we submitted our final response to the FTA, as we 
committed to do so, on June 30th, providing documentation for 
all 65 FMO corrective action plan items. While work is ongoing, 
these completed action items address all 45 recommendations 
made in the FMO report.
    With respect to one of the major recommendations, all 35 
grants referenced in the FMO report have been reconciled, and 
necessary budget revisions have been submitted to the Federal 
Transit Administration. Eighteen of the 35 grants are now 
completely drawn and formally closed.
    And, finally, I want to update the committee on the Board 
of Directors' search for a permanent general manager. With the 
management-gathered extensive feedback from the public, 
including riders, community advocates, business leaders, 
funders, and other stakeholders, the Board has restarted the 
search. The scope of the search has been expanded to include 
candidates with financial management experience and those 
outside the government and transit industry. The process is 
expected to be completed with a final selection this fall.
    In conclusion, Metro's attention to safety has been--
continues to be unwavering. While we have made progress, recent 
events remind us that we have more work ahead and must remain 
focused on not only continuing improving our systems and 
processes but on the investments and equipment, infrastructure, 
people, training, and tools that are necessary to deliver an 
even safer system daily.
    Thank you for allowing me to testify today, and I look 
forward to answering your questions.
    [Prepared statement of Mr. Requa follows:]
    For complete submitted testimony, please see the following 
website: https//oversight.house.gov/hearing/d-c-metro-update/
    Mr. Mica. Thank you.
    And we will go next to the CFO for Metro, and that is Mr. 
Dennis Anosike.
    You are welcome and recognized.

                  STATEMENT OF DENNIS ANOSIKE

    Mr. Anosike. Thank you, Chairman Mica, Chairman Meadows, 
Ranking Member Duckworth, Ranking Member Connolly, and members 
of the subcommittee. Thank you for the opportunity to testify 
today. My name is Dennis Anosike, and I serve as the chief 
financial officer for Metro.
    I appreciate the invitation to come before you to provide a 
summary of where Metro is financially. Given the capital 
funding provided to Metro by the Federal Government, it is 
important that we provide you with clear updates on Metro's 
financial condition. The Federal funding that Metro receives 
each year is vitally important and represents about half of 
Metro's annual capital program, which is focused primarily on 
customer safety and service reliability.
    I would like to begin with an update on the Federal Transit 
Administration's financial management oversight report, which 
was provided to Metro on June 10, 2014. The report identified 9 
findings, 5 advisory comments, and a total of 45 
recommendations.
    In response to that report, Metro committed to 65 
corrective action plans. And, as Mr. Requa just mentioned, we 
are happy to report that, as of June 30, Metro has completed 
and submitted all 65 CAPs to the FTA.
    This significant milestone represents Metro's fulfillment 
of its commitment with respect to the FMO report. However, more 
work remains to be done, including completion of Metro's fiscal 
year 2014 financial statements audit, which is significantly 
delayed in part due to the deficiencies identified in the FMO 
report.
    But, as we have addressed these challenges, Metro's 
financial condition is beginning to stabilize, with sufficient 
cash on hand to meet vendor obligations. This also follows 
recent extension of Metro's lines of credit as well as Federal 
grant reimbursements totaling $375 million since the ECHO 
restriction was imposed almost 16 months ago. As a result, 
Metro has repaid approximately half of the short-term debt 
originally incurred to manage liquidity following the Federal 
grant drawdown restriction.
    And, in the last 12 months, we have worked to improve 
operating efficiency and to revamp Metro's financial 
management. One significant action is the creation of the 
Office of Internal Control and Compliance, which is responsible 
for reviewing and monitoring financial monitoring controls 
throughout Metro.
    This new office will provide objective assessments of 
Metro's compliance with financial monitoring controls, with a 
primary focus on applicable Federal rules and regulations 
necessary to ensure and preserve Metro's Federal grants 
eligibility. In the coming months, we will build on the current 
framework to further strengthen Metro's internal control 
processes and results.
    And, finally, recent ridership and revenues of Metro has 
been flat due to factors including regional economic changes as 
well as the reduction in the Federal Transit Benefit Program. 
This year, Metro has utilized internal efficiencies to offset 
the negative revenue impact without increasing fares or 
reducing service, and we expect to balance--or to end fiscal 
year 2015 with a balanced budget without additional 
contributions from our jurisdictional partners. Without Federal 
transit benefit equity, however, this will be much more 
difficult in the future.
    I would like to end, Mr. Chairman, by emphasizing that 
fiscal responsibility, including adequate, accurate, and timely 
financial reporting, is our top priority.
    Thank you again for the opportunity to testify here today, 
and I will be happy to respond to any questions.
    [Prepared statement of Mr. Anosike follows:]
    For complete submitted testimony, please see the following 
website: https//oversight.house.gov/hearing/d-c-metro-update/
    Mr. Mica. Well, thank you.
    And we will recognize last Helen Lew, the inspector general 
of Metro.
    Welcome, and you are recognized.

                     STATEMENT OF HELEN LEW

    Ms. Lew. Good afternoon, Chairman Mica, Chairman Meadows, 
Ranking Member Duckworth, Ranking Member Connolly, and members 
of the subcommittees. I would like to thank you for the 
opportunity to testify today.
    I am the first inspector general appointed by the WMATA 
Board of Directors. Our office was authorized by a Board 
resolution in 2006, and I began my tenure in May 2007. I report 
to the Board and, as such, am independent of management.
    We conduct audits, investigations, and evaluations of WMATA 
activities to promote economy and efficiency and to prevent and 
detect fraud, waste, and abuse. We also have an oversight role 
over the annual financial statements audit and the Single Audit 
of major Federal programs. These audits are performed by an 
external audit firm.
    I will now highlight our work, both completed and planned, 
on rail safety and emergency responsiveness at WMATA.
    Regarding rail safety, OIG performed a controlled self-
assessment of employee safety in WMATA's Office of Track and 
Structure Systems Maintenance in 2010. The objectives of the 
CSA were: one, examine the effectiveness of safety internal 
controls from the employees' perspective; and, two, find 
solutions that will help eliminate or reduce preventable rail-
related accidents.
    The results indicated employees did not believe WMATA 
provided them a safe working environment. The issues brought to 
OIG's attention during the CSA fell into three categories: One, 
the work environment was not safe; two, training was not 
adequate; and, three, communications were not effective.
    We made 19 specific recommendations to management. These 
have all been closed out, and we have not performed any 
followup work since the CSA was conducted.
    On the subject of emergency responsiveness, OIG has issued 
several reports that identified internal control weaknesses in 
WMATA's rail system.
    For example, we issued an alert memo in August 2010 to 
management identifying a serious internal control weakness in 
WMATA's accounting for keys to mission-critical areas. In an 
April 2013 audit report, we identify a matter of concern 
relating to the need to update the Metrorail Emergency Response 
Maps located in selected Metro stations. In September 2014, we 
issued an audit report noting access to train service rooms 
were not adequately controlled.
    While management concurred with the aforementioned findings 
and recommendations, they remain open as of June 30, 2015.
    On a separate but related note, the Federal Transit 
Administration recently issued a safety management inspection 
report, which identified some of the same concerns and issues 
we identified in our CSA and our audits. These include 
inadequate Rail Operations Control Center staffing and 
procedures, ineffective training, systemwide management issues, 
and emergency preparedness.
    OIG has received safety-related complaints and allegations 
via the OIG Hotline. Since our inception in 2007, we have 
issued 11 reports of investigation involving rail safety. Our 
investigations did not substantiate any of these complaints. We 
currently have five ongoing safety-related cases.
    We initially planned to conduct two safety-related 
performance evaluations, specifically on WMATA's Safety 
Management System and WMATA's Rail Car Preventive Maintenance 
Program. These have been deferred as a result of the FTA safety 
management inspection and the NTSB investigation of the 
L'Enfant Plaza incident in January of this year.
    In summary, OIG has identified areas for improving rail 
safety and emergency responsiveness at WMATA. While WMATA has 
made progress in these areas, more work is needed.
    I would like to really reiterate something we stated in our 
CSA, which I believe still holds true today. It is critical top 
management at WMATA provide support and demonstrate commitment 
to establishing a safety culture that listens to its employees 
and, if warranted, acts on safety concerns in the most 
expedient manner possible. Top management also needs to carry 
out and enforce applicable safety laws, regulations, and WMATA 
safety policies and procedures.
    This concludes my prepared testimony, and I'll be glad to 
answer any questions you and the members of the subcommittee 
may have.
    [Prepared statement of Ms. Lew follows:]
    For complete submitted testimony, please see the following 
website: https//oversight.house.gov/hearing/d-c-metro-update/
    Mr. Mica. Well, thank you.
    And we will get right to questions.
    First of all, to the NTSB representative, it appears and 
you have cited in your testimony that it may be possible that 
the accident was caused by not having these sealed sleeves and 
that water could have penetrated, shorted, arced. Is that sort 
of your preliminary finding?
    Ms. Dinh-Zarr. We actually don't issue any preliminary 
findings, but----
    Mr. Mica. But you----
    Ms. Dinh-Zarr. --that's a possible cause.
    Mr. Mica. But you also--did you alert WMATA about this 
issue?
    Ms. Dinh-Zarr. Yes. So, whenever we find any concerns, 
safety concerns----
    Mr. Mica. I know. I mean, I am not----
    Ms. Dinh-Zarr. --we immediately issue----
    Mr. Mica. --I am not----
    Ms. Dinh-Zarr. --we immediately issue----
    Mr. Mica. --that technical. I went down and looked at it. A 
very large wire connector.
    Ms. Dinh-Zarr. Thanks for coming and seeing our labs.
    Mr. Mica. Yeah. And every Member should get down there and 
see what is going on. It is great work.
    But it doesn't take a rocket scientist to see that it 
somehow shorted out. I assumed, at the time I looked at it, it 
might have been water into that. That will arc, and you could 
have smoke and whatever happened there. I don't want to 
conclude that that is that, but that is a safety issue. It 
appears that the covering was destroyed and possibly penetrated 
by water.
    There are a thousand of these connections, I understand, in 
the system. Have they all been inspected, Mr. Requa?
    Mr. Requa. Yes, Mr. Chairman. Following the comments by the 
NTSB, we inspected all of the connections within the system. 
We've prioritized those that we feel need to be addressed in a 
priority order. We are taking actions in that----
    Mr. Mica. The other thing that would concern me is if they 
are in water. I mean, I think these sat in water. And I don't 
know the condition, if they inspected them to see they were 
in--if they are sitting in water, the likelihood of it 
penetrating this somewhat possibly defective casing would be a 
concern to me.
    So they have been inspected?
    Mr. Requa. They have been inspected.
    Mr. Mica. Okay.
    And has anything been done about the seals?
    Mr. Requa. The seals are being installed. In fact, on the 
Silver Line extension that opened just about a year ago, these 
sealing boots were incorporated into that construction program.
    Mr. Mica. And the fans--also we had problems with the fans.
    Mr. Requa. Fans have been fully----
    Mr. Mica. Okay.
    The other major concern is, they just showed me a tweet or 
something of one of the stations, with people packed in there 
like sardines.
    Now, if you have an incident in the station, some years ago 
we did install communications so cell phones and communications 
worked in the station. But it has taken years, and we still 
don't have them in the tunnels. That is where this accident 
occurred. They could not communicate in the tunnels.
    That is still the case, isn't it?
    Mr. Requa. From a cell-phone standpoint, there still are 
the----
    Mr. Mica. But there was still inoperability and lack of 
ability to connect communications from the train. The power 
went down, I guess, and--but there was lack of communications.
    Mr. Requa. There was no issue with communications between 
the train operator and our control center, with our employees 
or with our Metro Transit Police. There were issues with the 
first responders.
    Mr. Mica. But does that situation still exist?
    Mr. Requa. Immediately after the event, we found the 
solution and fixed the problems with the District's fire 
department for their radio system that does now work----
    Mr. Mica. So cell--you don't have cell service in----
    Mr. Requa. In the tunnel.
    Mr. Mica. --in the tunnel.
    Mr. Requa. That's correct.
    Mr. Mica. But you do have emergency service that will work.
    Mr. Requa. Yes.
    Mr. Mica. Okay.
    The first thing we have to be concerned about is the 
thousands of people that are there. We are fortunate that was a 
limited--I mean, that there weren't 80 deaths. It is horrible 
to have one. But our responsibility--and we have put a heck of 
a lot of money, probably more than any other system in the 
country, Federal money, into the system. And I actually don't 
have a problem with it if it is well-managed and -spent.
    Okay. Do we have an agreement with the cellular companies 
how to proceed to do the installing in the tunnels?
    Mr. Requa. We've been negotiating----
    Mr. Mica. Do we have an agreement?
    Mr. Requa. No.
    Mr. Mica. Okay. We don't have an agreement.
    And not only did I write you, we had a whole bunch of 
Members write you and asking again that we move forward with 
that. We have had at least one meeting, and then I was told in 
your response there would be a meeting on the 13th. That didn't 
take place?
    Mr. Requa. No. The meetings have been going on on a weekly 
basis.
    Mr. Mica. But there was no meeting on the 13th.
    Mr. Requa. There was a meeting last Friday. That was the 
last meeting.
    Mr. Mica. Well, there was no report to our staff.
    Did our staff get a report?
    And I was told that we would get a report.
    Mr. Requa. I believe there was a verbal report.
    Mr. Mica. We are not being kept up-to-date. We don't have 
an agreement. I want an agreement. I am really just tired of 
this. And the cellular companies have been jerked around.
    I was in the cellular business. I will go down there and 
connect the damn thing. I don't know if I could do that. But I 
am telling you, it is not that complicated. They pay for most 
of it. It is access that I have heard is part of the problem. 
But we want an agreement.
    The final couple of questions here.
    Mr. Connolly. Would my friend yield for a second on that?
    Mr. Mica. Yes.
    Mr. Connolly. Just to reinforce your point, it is my 
understanding that, in some cases, access has been denied the 
would-be providers for clearly what are ancillary reasons, 
including the washing of windows on railcars. And I am 
thinking, well, who prioritizes what?
    And, clearly, having access on the ground, it seems to me, 
for customers, especially when there is any kind of an 
incident, would be a priority over washing windows on cars.
    Mr. Mica. Well, again----
    Mr. Connolly. I thank my friend for yielding.
    Mr. Mica. --I have begun to take some steps in 
Appropriations and other measures--and I have a lot of support, 
even from some of the Members from the affected jurisdiction. 
But if we don't get some agreement to get this done and 
something in writing by the time I get back in September, I 
guarantee you the fur will fly. And I will have a lot of 
support for that. Again, I just don't know what other means to 
use.
    Finally, I have become very concerned with the FTA 
financial management oversight review. And this is just what it 
says here. It criticized Metro for handling Federal funds, such 
as improperly awarding millions in no-bid contracts, charging 
expenses improperly to Federal grants, and skirting contract 
rules.
    Does the financial officer wish to respond to these 
criticisms?
    Mr. Anosike. Chairman Mica, those observations were 
accurate, as reported by the FTA. Since last year, with the 
release of that report, we have taken steps to address those at 
several levels.
    At the policy level, there is a new set of policies that 
guide both the award of contracts as well as with respect to 
grants applications and management.
    Mr. Mica. Okay. And you have told me that you responded to 
a number of those criticisms. Do we have that in writing?
    Mr. Anosike. I can----
    Mr. Mica. Can you--can you----
    Mr. Anosike. It was provided in writing to FTA, but we 
can----
    Mr. Mica. Can you provide it to us? I would like it to 
appear, what you--your response for these criticisms.
    Mr. Anosike. We will do so.
    Mr. Mica. I want to give the other members time.
    Finally, let me say, the other thing is I am a strong 
advocate of the private sector. If this nonsense continues, in 
the lack of management, the ability to get expensive management 
in place, I will work and I think I can get support to require 
that the operations and management be put up for bid and that 
it be given to an operating company. There are management 
companies that can operate transit systems and take it out of 
the hands of Metro. They would still control it, pick the 
operator, but I am fed up with the whole mess.
    Let me yield now to the ranking member, Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    I would like to take a Federal view at this.
    Ms. Dinh-Zarr, I noted at the outset of this hearing that I 
believe that the implications of the January 12 incident extend 
far beyond the national capital region and carry critical 
lessons for mass transit agencies across the country. As NTSB 
itself recognized in its 2015 Most Wanted List, making mass 
transit safer is a national challenge facing all major transit 
systems, be it WMATA or CTA or the Metropolitan Transit 
Authority.
    And that is why I am so concerned about your testimony this 
evening, where you noted that during NTSB's recent 
investigative hearing that you learned that FTA does not have 
regulatory programs providing boots-on-the-ground inspectors to 
assure compliance, similar to how the FRA and the United 
Kingdom assures safe transportation.
    In other words, post-MAP-21, FTA appears to possess robust 
regulatory authority on paper to ensure transit agencies 
implement important public safety reforms, yet it appears to 
lack the resources and programs to actually exercise such 
authority in practice.
    I am especially concerned because, as the NTSB noted at our 
previous joint hearing, the NTSB is an investigator and not a 
regulator. You cannot make anyone do anything, to paraphrase 
Chairman Hart. Thus, it appears we have a critical gap right 
now between a strong investigator and a regulator that has much 
room for improvement.
    My question to you is, what specific policy or oversight 
actions do you believe Congress should take to ensure that FTA 
actually engages in compliance with true boots-on-the-ground 
inspection programs?
    Ms. Dinh-Zarr. Thank you, Ranking Member Duckworth, for--
and acknowledging our Most Wanted List, as well. That's 
actually my issue, is make mass transit safer. So we appreciate 
that. And, as you can see, we take that very seriously.
    As we stated in our response in proposed rulemaking, the 
NTSB is very encouraged by the increased safety authority 
that's been given to the FTA by the wisdom of Congress through 
MAP-21. But FTA obviously has more work to do in implementing 
this authority.
    So I think our role at the NTSB is to make these safety 
recommendations, and we hope that you will, as Congress, as a 
committee, continue to authorize as you see fit those--you 
know, the authority to allow FTA to implement those safety 
recommendations as they come along.
    So we are in the business of looking at safety from each 
accident that happens, preventing it from happening again, 
giving you those in order to better inform you on how you feel, 
in your wisdom as Congress, to give the authority to FTA to 
act.
    Ms. Duckworth. You're being very politically correct in 
your answer, and I appreciate that. I think we still have----
    Mr. Connolly. Especially that wisdom part.
    Ms. Duckworth. Yeah.
    Well, I think you see from this panel, from the folks who 
are sitting up here, that we have a real passion to fix this, 
and we're frustrated. We see that you're coming up with--you're 
part of a very strong investigative agency. And yet there's 
much room for the regulators, much room for improvement there. 
And we're willing to do something about this, and if we need to 
did that, we will.
    But it gets frustrating for me to know that in 2007 there 
was a known problem, that an incident happened in Chicago, and 
yet for 7 years--in 2006--for 7 years nothing was done and we 
knew what the lessons were.
    And I am also a regular commuter on the Metro myself. When 
I worked at VA, I commuted every day back and forth. We can 
talk about elevators some other time, a personal, personal pet 
peeve.
    But it concerns me that we had a loss of life here that 
maybe didn't need to happen, and for sure it didn't need to 
happen. I'm a pilot and we say that aviation regulation is 
often written in blood, the blood of pilots and passengers. And 
I think that we're getting to that place with the mass transit 
system, and that bothers me and scares me that that's where 
we're headed.
    So I'll work with my colleagues and both our ranking 
members to see what else we can do. But the fact of the matter 
is, if we know that there are problems and we know what the 
fixes are, but no one is implementing them, and there's no way 
to verify and have boots on the ground to inspect and make sure 
that we're putting these solutions in place, then we have a 
real problem here. I think it goes even beyond the lack of 
leadership and the reliance on interim leadership. So we may 
have to do something here.
    I thank the chairman, and I yield back.
    Mr. Mica. Thank you, Ms. Duckworth.
    Mr. Grothman, our vice chairman, you're recognized.
    Mr. Grothman. Sure. I have a question for Ms. Lew.
    And I don't mean to put you on the spot, because it was 
Congress who kind of created your position and put you in the 
position you are, but I hope you can answer these as honest as 
possible.
    Does your work plan have to be approved by the Board in the 
first place, is that correct?
    Ms. Lew. Yes, our work plan is--I do a work plan every year 
and we submit it to the Board for approval.
    Mr. Grothman. And can you do any of your work without 
approval of the Board?
    Ms. Lew. I'm sorry, what?
    Mr. Grothman. Are you able to conduct any of your work 
without approval of the Board?
    Ms. Lew. Yeah, there are times that we do an audit that may 
not be listed, but because it's urgent and needs to be done, 
those cases we let the Board know that.
    Mr. Grothman. Okay. Do you feel that your need for Board 
approval on your work plan, does that stifle your independence 
at all?
    Ms. Lew. No, it doesn't.
    Mr. Grothman. Okay. It's true that before your audits have 
to be published and released the Board must sign off on them?
    Ms. Lew. What the Board does is that before I can post a 
report on the Web site, it must be reviewed by the Board, 
accepted by the Board in order to be posted.
    Mr. Grothman. Have you ever had any work that hasn't 
accepted by the Board in which they request you make some 
changes to your reports?
    Ms. Lew. This requirement went into effect I think early 
this year--I'm sorry, late last year. There has not been a 
report that we have submitted to the Board for posting that 
they have denied it.
    Mr. Grothman. Okay. It's a relatively new thing----
    Ms. Lew. It was some time late last year. I can provide you 
the exact date later.
    Mr. Grothman. One report, three reports, five reports, how 
many reports have you done since the new rules? About.
    Ms. Lew. I don't have the exact count. I can get that for 
you too.
    Mr. Grothman. I mean, is it lots? Ten?
    Ms. Lew. One thing I need to let you know is that we don't 
suggest to the Board that every report we do is post, and I 
want to explain that. We do not post on our Web site 
attestations that we do--and attestations are where we review 
the pricing information of contract proposals or claims and 
modification--because those reports contain proprietary 
information, so we will not post those on the Web site.
    We also do not post investigative reports on the Web site. 
We also for performance audits--and much of this is in the 
performance area--performance audits or performance evaluation, 
if they contain sensitive proprietary information or security 
information, we will also not post them on the----
    Mr. Grothman. Okay, thanks.
    In October of 2013, initially the audit of nMomentum, I 
think, was on the Web site and then removed. Do you care to 
comment on that or why it was removed?
    Ms. Lew. It was removed because the contractor/
subcontractor had problems with the report and the information 
that was contained in the report. So they hired a legal firm to 
let our management know that. And as part of the settlement of 
that, the report was taken down and a memo was put up.
    Mr. Grothman. Okay. Just in general, as we deal with the 
overall Board here, do you think your office should have the 
authority to investigate the Board itself?
    Ms. Lew. That's not for me to determine.
    Mr. Grothman. Okay, maybe it was an unfair question.
    Ms. Lew. Well, let me--see, I come from a Federal IG 
background, and I think what I'd like to do is point out the 
difference between a Federal IG and a transit authority IG 
here.
    A Federal IG doesn't report to a Board, they coordinate and 
inform the Cabinet secretary their findings. They can 
investigate a Cabinet member. They also have a counsel that 
advises that IG. And also, as you know, because I know IGs have 
come before this committee, they will report to the Board on 
what they find. So they themselves are the last resort. They 
don't have a boss.
    I was created by a Board resolution, as I mentioned, and 
the Board resolution says I am independent of management, but I 
report to the Board. So it's the Board that determines my role 
and responsibilities.
    Mr. Grothman. Okay, I'll give you one more follow-up. I 
really appreciate the inspector general, and they are always--
when we have people testify I always have such a high opinion 
of them. Obviously you as a creation of Congress are a little 
bit different breed here, as you pointed out. Do you think your 
office would be at all more effective if you were set up more 
like the Federal IG.
    Ms. Lew. Well, our office--the Board resolution that 
created us models--we model after a Federal IG, but we don't do 
everything that a Federal IG does, because we are not a Federal 
IG.
    Mr. Grothman. Okay. Do you a counsel?
    Ms. Lew. I don't have an individual that has the counsel 
title.
    Mr. Grothman. Okay. Did you have one?
    Ms. Lew. I did. The title was taken.
    Mr. Grothman. Was taken away, do you know----
    Ms. Lew. And the reason why the former general counsel took 
the title away, the former counsel felt she is the counsel for 
the authority, and I don't disagree with that. She felt that 
certain employees or individuals that we may call in for an 
investigation may see my assistant IG for investigation, 
misinterpret that when she wears that hat that she has client-
attorney privileges. And because of that, they may think that 
when they share something with her it stays with her. But 
oftentimes when my assistant IG for investigations interacts 
with an employee or contractor or whatever, they are wearing 
the assistant IG for investigation hat, but not all people 
understand that clearly.
    Mr. Mica. Thank you.
    Mr. Grothman. Okay. Thank you for letting me go over.
    Mr. Mica. Thank you.
    And Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Requa, in delineating what you were looking for in a 
general manager you seemed to emphasize financial management. I 
didn't hear the same emphasis on operations and safety. Was 
there some reason for that or----
    Mr. Requa. The selection of the----
    Mr. Connolly. Please speak into the mic, we can't hear you.
    Mr. Requa. The selection of the new general manager is the 
responsibility of the Board. So I'm just reporting on what they 
have issued as their direction going forward in the next 
selection process.
    Mr. Connolly. So are you telling us the Board has decided 
to put financial management above operations as a priority or a 
characteristic in candidates?
    Mr. Requa. I'm not saying that. My understanding is that 
they are looking for somebody with a strong financial 
background, somebody that has management experience that does 
not necessarily have to be in transit or in government.
    Mr. Connolly. You are aware of the fact that was a dispute 
among the Compact members. I mean, there's no secret about 
that.
    Mr. Requa. I understand that, yes.
    Mr. Connolly. And are you telling us that dispute got 
resolved in favor of financial management over operations?
    Mr. Requa. I think that's a better question for our Board 
of Directors.
    Mr. Connolly. Well, Mr. Chairman, I would ask unanimous 
consent that we receive a statement of clarification from the 
Board of Directors of Metro. I mean, after everything we're 
talking about, after four studies going on, the idea that 
somebody--that we wouldn't put operations as central to the 
mission of a new general manager boggles the mind.
    I ask unanimous consent, Mr. Chairman.
    Mr. Mica. I'd be glad to work with the gentleman on both 
sides of the aisle to put that request forward.
    Mr. Connolly. I thank the chair.
    Dr. Dinh-Zarr, in the NTSB interviews following the January 
12 accident there was reference to a lot of siloing, that the 
right hand didn't seem to know what the left hand was doing all 
too often within Metro. Do you want to expand just a little bit 
about what you meant by that, and any sense of that improving? 
By the way, what could be wrong with that?
    Ms. Dinh-Zarr. Thank you, sir. Thank you for that question.
    So in our hearing, so I'm preventing--presenting the 
factual information, because obviously the deliberation as a 
mandate from Congress must be done in a sunshine meeting, which 
we will have at the end of the investigation. But as your staff 
and you probably saw, there was repeated reference to insular 
forms of communication, so there wasn't a lot of communication 
between different departments within WMATA. That was stated by 
several witnesses, as well as through the interviews.
    Mr. Connolly. And can that affect safety?
    Ms. Dinh-Zarr. So again, we wait for the deliberations for 
the ultimate public Board meeting. But during the hearing we 
did find that there was miscommunication because of this lack 
of communication between. So we asked questions about when--I 
personally asked a question about a smoke alarm and there were 
different answers from different departments about different 
issues.
    So as you can see, when there are different responses to a 
fairly factual question, it shows that there is a lack of 
communication, which can affect safety.
    Mr. Connolly. But that lack of communication is directly 
related to a management structure, how Metro is organized. If 
you've got silos not talking to each other, that's not just a 
matter of communication. Communication in a sense is a 
byproduct of the management structure of the organization.
    Ms. Dinh-Zarr. That's what we're investigating.
    Mr. Connolly. Yeah.
    The Tri-State Oversight Committee, when we were briefed by 
the FTA on its study, it cited the Tri-State Oversight 
Committee as a new oversight structure that will also be a 
player in oversight of Metro and its management and the safety 
issues.
    Have you reviewed the structure of the Tri-State Oversight 
Committee? And have you any views about what kind of role it 
could play in a positive way?
    Ms. Dinh-Zarr. So the Tri-State Oversight Committee, which 
they call the TOC, is being restructured. We did--we had a 
witness who was the current chairperson of that testify at our 
hearing, our public hearing. And apparently, it is being 
completely reorganized. But they did express as witnesses that 
they had very little authority currently. So I think that in 
the restructuring they are planning to see if they can have 
greater authority for oversight.
    There wasn't--this is public record, so this was in the 
interviews--there wasn't much oversight or authority that the 
TOC was doing, according to the witness.
    Mr. Connolly. Let me just end by one editorial on that. I 
think sometimes it is forgotten how Metro actually is organized 
and paid for. We have three Compact members, but in Virginia, 
unlike Maryland, the localities pay the bills, the localities 
pay the subsidies, not the State of Virginia. And yet, time and 
time again when Virginia is represented, it's out of Richmond, 
appointed by the Governor. He can have all the appointees he 
wants if he'll pay the bills. But it's Fairfax and Arlington 
and Alexandria that pay the bills.
    It is very frustrating on the Virginia side of the river 
sometimes that this is not always taken into account. Whereas 
in Maryland, Annapolis pays the bills. And that's fine, great. 
And of course the Federal Government doesn't provide you any 
subsidies--I mean, operating subsidies.
    And so we really do need to get the structure right if 
we're going to have meaningful oversight, that the stakeholders 
on the Virginia side are up here, not down in Richmond.
    Thank you. My time is up, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Connolly.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman, and I thank you for 
this joint hearing.
    I just want to indicate that the region has lost no time, 
both after the smoking incident and the financial concerns, and 
I appreciate that our committee has lost no time. But I do want 
to go on record as saying that in all those hearings and 
meetings there has been no evidence that Metro itself is 
unsafe, and I do not think that that is the message we should 
send concerning Metro because of deficiencies that have been 
found.
    I do say this, that if Congress cuts $50 million from its 
capital funding, much of which will go to the 7000 series cars, 
which came into play in the 2009 incident, then we can be 
assured that we are moving toward unsafety.
    Mr. Anosike, you've been subject to a number of studies. 
One was of course a GAO study. And as I understand it, the GAO 
has found that WMATA was on track to address its remaining 
recommendations and that by June 30 it expected it all to be 
done. Have you addressed those recommendations? Did you address 
those by June 30?
    Mr. Anosike. Yes, Congresswoman Norton, we did include 
those in our June 30 submission statement.
    Ms. Norton. Well, that's the predicate to this question. I 
must say to you that I'm interested in WMATA doing better. I'm 
not interested in punishing WMATA to the point that there is a 
Federal--that there is a fare hike.
    Now, the Federal Transit Administration is not here, Mr. 
Requa and Mr. Anosike, but what they have done is to take Metro 
back for good reason to the 20th century and had it do its 
reports, its financials by hand. And I understand it's done 
that for at least a year. WMATA concurred in the FTA 
recommendations. But it's had to seek additional lines of 
credit.
    At the last hearing I asked if there would be a fare hike, 
and the Board chair who was here said he was doing everything 
he could to see that there would not be a fare hike.
    Now, if WMATA has met the GAO recommendations as of June 
30, if for a year it has been doing its financials, because 
those were not in order, manually, has WMATA asked to be 
relieved of this manual reimbursement process, which obviously 
is going to mean more short-term loans and more interest and 
the rest? Have you asked to be relieved of that? And don't you 
think you've done enough to be relieved of it? Both of you, I 
ask that question.
    Mr. Anosike. As we understand the process, once WMATA 
submitted its compliance items to FTA, FTA then will embark on 
the process of validation. We have been working aggressively 
with FTA to undertake that exercise.
    Ms. Norton. Mr. Anosike, the only thing that the GAO found 
that WMATA had not done among its recommendations was it had 
not established the policy and related procedures for 
conducting periodic assessments of its financial management 
risks.
    Now, you testified--I'm looking at page--it's the last 
page, it has no number--that you say that Metro has created an 
Office of Internal Control and Compliance. Why isn't that the 
office that is responsible for what the GAO wants, a policy--to 
establish policy and related procedures for conducting periodic 
assessments of financial management, et cetera? Why isn't that 
the office?
    Mr. Anosike. That indeed is the office. What GAO is 
suggesting is that there ought to be additional structures 
around the internal compliance process. And I believe our 
response to the GAO is that we will be doing that. As part of 
my testimony, I indicated that in the coming months we will 
undertake that exercise to comply with the GAO's 
recommendations.
    Ms. Norton. Well, I believe you have complied in 
establishing the office and in meeting all the GAO's 
recommendations.
    And I have to tell you, I am not--I'm not among the members 
up here beating WMATA across the head and shoulders. I have 
seen improvements. I think it ought to be given credit for 
improvements.
    But I have to ask you why you are allowing--both you, Mr. 
Requa, and Mr. Anosike--why you are allowing short-term 
borrowing instead of going back and saying: Look, we've been on 
this for a year. We've been submitting these reports manually. 
If we did this the way we used to--we've been in compliance. 
You're costing us money and it could mean a fare hike. And if 
you want to see some people who are going to be mad, they are 
going to ask you why didn't you take action to make sure that 
there would be no fare hike.
    Is there going to be a fare hike?
    Mr. Requa. Metro is working constantly with the FTA to be 
responsive to their requests, submitting invoices. We are 
getting funding back----
    Ms. Norton. Have you been asked to be relieved of this 
manual submission?
    Mr. Requa. I don't know that we've actually asked that 
question----
    Ms. Norton. Don't you think it would be appropriate to do 
so since you've been in compliance now for over a year? Are you 
prepared to say that there will be no fare hike, no increase in 
fare for Metro?
    Mr. Requa. The fiscal year 2016 budget has no fare hike 
included in it or service cuts.
    Ms. Norton. Well, thank you very much. I'm sure the public 
would be very pleased to hear that, because with short-term 
borrowing going on, interest accruing, I'm not sure that was 
altogether clear.
    Thank you very much, Mr. Chairman.
    Mr. Mica. I thank the gentlelady.
    Mr. DeSaulnier.
    Mr. Connolly. Mr. Chairman, would you just allow me to 
clarify something before.
    Mr. Mica. On the gentleman's time? And actually you have 
time remaining, you had 2 minutes you didn't----
    Mr. DeSaulnier. I would be happy to yield.
    Mr. Mica. We won't take any of your time. I give him that 
time.
    Mr. Connolly. I thank my friend.
    I just want to--in Mr. Requa's testimony, written 
testimony, so there was no understanding, essentially it says: 
No transit experience necessary. Here's what it says with 
respect to the search for a general manager: ``The scope of the 
search will include candidates with extensive financial 
management experience and will not require that the candidates 
have government or transit industry experience.'' A real 
confidence-building measure from Congress' point of view.
    I thank the chair.
    Mr. Mica. Thank the gentleman.
    Mr. DeSaulnier.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    Ms. Lew, you mentioned in your comments that you found 
systemwide management problems. Is that correct?
    Ms. Lew. That was in the FTA.
    Mr. DeSaulnier. Would you comment a little bit more? In 
your work did you find similar problems? And could you 
elaborate a little bit if you have?
    And I ask this in the context, if my memory serves me 
right, the last hearing we talked a lot, Mr. Requa, about the 
safety culture at the organization. And I'd like to associate 
myself with the comments by the ranking member. The similarity 
in this organization to the Bay Area Rapid Transit District in 
my district is somewhat similar. And the NTSB has done an 
investigation on an unfortunate situation where two of our 
employees were killed when they were on the line.
    So when you have a safety culture and when there's comments 
from FTA, Ms. Lew and Mr. Requa, maybe you could elaborate on, 
but when you look at systemwide management problems, as much as 
you've done really good work apparently on the corrective 
actions, you've got something much more difficult when you've 
got a safety culture and systemwide management problems.
    Ms. Lew. Okay, let me address your question. What I was 
trying to say is that when we did the CSA back in 2010, we 
identified three categories. We mentioned that the work 
environment was not safe, training was not adequate----
    Mr. DeSaulnier. Not enough training.
    Ms. Lew. --and communications. The FTA identified eight 
categories. Five of those categories were areas that identify 
same issues and concerns that we had identified in the CSA.
    Now, you specifically asked about the category relating to 
systemwide maintenance issues.
    Mr. DeSaulnier. No, maybe I misunderstood. Management 
problems. Was it maintenance?
    Ms. Lew. No, it was maintenance. Yeah, it was maintenance.
    Mr. DeSaulnier. Okay. I stand corrected.
    Mr. Requa, maybe you could go to the safety culture. And 
also in the last hearing, at least I took from that, that the 
relationship between management and rank and file was not as 
good as it should be and morale was a problem. Could you maybe 
go into that a little bit and see if we've corrected some of 
those issues and what action the board's taken?
    Mr. Requa. Since the incident on the Red Line in 2009 a 
number of safety actions have take place. The Board of 
Directors created a safety committee itself, so that the Board 
has a monthly meeting on safety. Management has created safety 
meetings in each of our facilities from our local standpoint 
that report to a departmental standpoint to an executive 
management meeting once a month where the general manager and 
all of his executive staff meet to address any safety concerns.
    We do surveys of our employees as to how comfortable they 
are in reporting safety concerns. Unfortunately, we're at 80 
percent, and we want it to be 100 percent. As a result, during 
the last years not only does the IG have a hotline that 
employees can report concerns anonymously, so does safety, so 
does the general manager's office. And recently we created a 
close call process so that rail employees can report their 
concerns to an independent agency that does a review and then 
addresses the concerns with management and corrections are 
made.
    So we've taken a number of steps, but we still have more to 
go because we still want all of our employees to feel confident 
that they can report to a management person and get a response. 
And we continue in every effort that we can to improve that 
morale and condition of feeling comfortable that they can 
report.
    Mr. DeSaulnier. Doctor, in your comments about trying to 
make the entire transit system in the United States safer, do 
you feel as if the FTA has enough statutory authority to 
accomplish what I take from your testimony you feel very 
strongly about currently or do they need additional statutory 
authority?
    Ms. Dinh-Zarr. Thank you, Congressman.
    We're very appreciative and encouraged by the authority 
that MAP-21 has given to FTA. And we are working with FTA, and 
we continue to issue them safety recommendations as needed to 
monitor the safety of systems throughout the Nation. But our 
role is really to issue those, and we leave that to you to 
decide what type of authority that they can have in order to 
have greater or lesser oversight as you see fit.
    Mr. DeSaulnier. I'll try another panelist then.
    Mr. Requa, do you think they have enough authority to help 
you and lessons learned in other parts of country or lessons 
learned here that they can carry to other parts of the country 
in terms of best practices when it comes to safety culture?
    Mr. Requa. I'm not sure that I can speak to the authority 
that they have, but it certainly is informative for us to work 
with agencies outside of WMATA, either the Federal agencies or 
other transit agencies, so that we can benefit from the 
progress that others have made in the areas of safety and other 
areas. And so we appreciate the opportunity to work with those 
agencies.
    Mr. DeSaulnier. Thank you, Mr. Chairman. I yield back.
    Mr. Mica. Thank you.
    And recognize Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. Thank you 
very much. I'm sorry, I was late, so some of my questioning may 
be a little bit naive here. A couple of questions.
    The position that is being recruited is the chief operating 
officer, the CEO, general manager, what is that?
    Mr. Requa. General manager/chief executive officer.
    Mrs. Watson Coleman. That's one person?
    Mr. Requa. That's one person.
    Mrs. Watson Coleman. And that's the individual that the 
Board is seeking to find that has strong financial experience, 
but not transit operational experience?
    Mr. Requa. I think it is worded such that the person does 
not have to have transit or governmental experience. Doesn't 
mean that they can't have it.
    Mrs. Watson Coleman. How long have you been with the 
Transit Authority?
    Mr. Requa. 1998.
    Mrs. Watson Coleman. Do you think that that's a unique--
that there are unique skills that are necessary and experiences 
necessary associated with running a transit authority versus 
running a--anything else, a Dairy Queen?
    Mr. Requa. My experience over the years has been that 
usually the lead person has transit experience, but our Board 
of Directors feel that--again, I think the Board is better to 
address this question, but they have agreed on a modification 
to a scope of work for the new person.
    Mrs. Watson Coleman. It seems that they may have decided 
upon a direction in which to go, but not necessarily having 
information necessary to go in that direction, and need to be 
cautioned about what kind of leadership any transit authority, 
not just this one, but any kind of transit or any transit 
authority.
    I worked with the Transportation Department in the State of 
New Jersey and worked with New Jersey Transit and worked with 
sort of other entities, and there was always this need for this 
specialized, high-level experience and training in the industry 
in order to be considered at the very top of the industry.
    I wanted to ask you about TOC. I don't know who to ask, 
though. I want to know what is supposed to be the role and 
responsibility of TOC. Because there was a mentioning in one of 
my readings that TOC is--it's not clear as to what's supposed 
to do, it's not clear on the range of authority.
    Doctor, you indicated that TOC was indeed restructuring. 
And it says that TOC is not certified. So what would it be 
certified to and by whom? So what is its function, role, 
authority? What's TOC?
    Ms. Dinh-Zarr. Yes, Congresswoman. I'll take a stab at it.
    That's the oversight. And the reason it's the TOC is 
because in other places it would just be the State safety 
oversight program, but here because there's three 
jurisdictions.
    Mrs. Watson Coleman. Right.
    Ms. Dinh-Zarr. So they are the ones authorized to have the 
oversight, and then they work together with FTA in order to--in 
our case, for our investigative hearing, to look at the safety 
efforts?
    Mrs. Watson Coleman. So what does that mean to have 
oversight, just to observe?
    Ms. Dinh-Zarr. It varies State by State.
    Mrs. Watson Coleman. Okay. And so their reorganization is 
to try to establish more than just observation, but some 
authority in some way?
    Ms. Dinh-Zarr. That we don't know yet, we don't know what 
the new organization.
    Mrs. Watson Coleman. I'm not sure where I read this, but it 
was mentioned that TOC has not been certified. And I was 
wondering what that meant. By whom? For what? Does anyone have 
an answer to that question?
    Ms. Dinh-Zarr. Our experts here say that FTA would certify 
TOC.
    Mrs. Watson Coleman. Certify it to what? Certify what?
    Ms. Dinh-Zarr. In order to be an oversight program. But 
they have not been certified program yet. And perhaps that's 
the reason they are reorganizing. But that's actually part of 
our investigation, is to find out exactly what TOC is doing and 
how that affects safety.
    Mrs. Watson Coleman. And what it should be doing, and how 
it can be helpful, and what does the certification mean, and 
how does that relate.
    Ms. Norton. Would the gentlelady yield on that? Every State 
is starting up these agencies. I'm sure not any agency has been 
certified yet, because they had to begin from the beginning. 
There was no jurisdiction on the part of metros across the 
country, safety jurisdiction at all. And so all across the 
country they are in startup mode, and I'm not sure that any of 
them are ready for primetime yet.
    Ms. Dinh-Zarr. And Delegate Holmes Norton is correct that 
some have not been certified. But California, for example, has 
been certified. So there have been TOC equivalents, other State 
safety oversight, that have been certified.
    Mrs. Watson Coleman. I got a notice here that TOC had 
actually applied in 2013, but it still lacks its certification. 
Who is not doing their job?
    Ms. Dinh-Zarr. That's one of the elements of our 
investigation.
    Mrs. Watson Coleman. Okay. When you find out it would be 
helpful to share that with us.
    Mrs. Watson Coleman. Thank you.
    Thank you, Mr. Chairman.
    Mr. Mica. Well, we do have people that we don't feel are 
doing their job and there are still links missing. I feel a lit 
bit more reassured that at least some of the inspection has 
been completed on these power connectors. When I saw that 
cable, that it arced, it gave me great concern. And at least we 
have their word that those inspections have been complete.
    I am still very concerned that communications are lacking. 
There are some improvements, but lacking for the average 
passenger once they get out of the station and into the tunnel. 
So we still have that concern.
    And then today we have concerns raised by the FTA financial 
management oversight review of the mismanagement and some of 
the inappropriate expenditures of public funds. A great deal of 
that funding for capital improvements actually comes from 
Congress. It's one of the biggest--we're one of the biggest 
contributors.
    And I have no problem giving the District of Columbia, our 
national capital, the money to have the finest, most efficient 
service, but they also have to be accountable. So in the record 
they will submit their responses to those criticisms.
    Mr. Mica. But we want to make certain that this system is 
safe and well run and financially responsible, and we'll work 
with everyone to do that. And I say, if that doesn't happen or 
we don't feel that'll happen, two things can happen. We will 
come back and we will revisit the funding, because Members, 
that's the only handle that we have. And then secondly, we'll 
look--I'll look at possibly imposing a requirement that the 
management and operations be put up for tender and that we get 
the best deal for the taxpayers and the best system possible.
    So did you want to put that up?
    They've been tweeting me since I finished my remarks of 
some of the--this is live from--which is it, which station? 
L'Enfant.
    But millions of passengers every week, and we've had almost 
a million in a day use our system, and it should be well run, 
efficient, and safe. And we'll make certain that it is in that 
order.
    We do leave the record open, we'll leave it open for an 
additional 10 days. There will be additional questions. I have 
unanswered questions from Members of Congress who wrote WMATA, 
and we expect answers to those in the next 10 days, and any 
other questions that are addressed to the panelists.
    Mr. Mica. I thank you for coming today.
    I thank the members for participating.
    There being no further business before the subcommittee, 
the joint session of the two subcommittees is adjourned.
    [Whereupon, at 6:40 p.m., the subcommittees were 
adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
